                              Report Template Version = 03-01-05_rev.07




Department of Health and Human Services

             OFFICE OF 

        INSPECTOR GENERAL 





    THE FOOD AND DRUG 

 ADMINISTRATION’S NATIONAL 

   DRUG CODE DIRECTORY





                    Daniel R. Levinson

                    Inspector General 


                      August 2006

                     OEI-06-05-00060

                                                                 Report Template Version = 03-01-05_rev.07




                    Office of Inspector General
                                     http://oig.hhs.gov


The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services (HHS)
programs, as well as the health and welfare of beneficiaries served by those programs. This
statutory mission is carried out through a nationwide network of audits, investigations, and
inspections conducted by the following operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides all auditing services for HHS, either by conducting
audits with its own audit resources or by overseeing audit work done by others. Audits examine
the performance of HHS programs and/or its grantees and contractors in carrying out their
respective responsibilities and are intended to provide independent assessments of HHS programs
and operations. These assessments help reduce waste, abuse, and mismanagement and promote
economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS,
Congress, and the public with timely, useful, and reliable information on significant issues.
Specifically, these evaluations focus on preventing fraud, waste, or abuse and promoting
economy, efficiency, and effectiveness in departmental programs. To promote impact, the
reports also present practical recommendations for improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of
allegations of wrongdoing in HHS programs or to HHS beneficiaries and of unjust enrichment
by providers. The investigative efforts of OI lead to criminal convictions, administrative
sanctions, or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG,
rendering advice and opinions on HHS programs and operations and providing all legal support
in OIG’s internal operations. OCIG imposes program exclusions and civil monetary penalties on
health care providers and litigates those actions within HHS. OCIG also represents OIG in the
global settlement of cases arising under the Civil False Claims Act, develops and monitors
corporate integrity agreements, develops compliance program guidances, renders advisory
opinions on OIG sanctions to the health care community, and issues fraud alerts and other
industry guidance.
                                                                                               Report Template Version = 03-01-05_rev.07




Δ   E X E C U T I V E                               S U M M A R Y                                               



                  OBJECTIVE
                  To determine (1) whether the Food and Drug Administration’s (FDA)
                  National Drug Code Directory (the Directory) is a complete and accurate
                  listing of currently marketed prescription drug products; and (2) if the
                  Directory is not complete or accurate, those factors that contribute to
                  missing or obsolete product listings.


                  BACKGROUND
                  Among other requirements, the Drug Listing Act of 1972 requires drug
                  firms to list with FDA prescription drug products manufactured,
                  prepared, propagated, compounded, or processed by them for commercial
                  distribution. Drug products are uniquely identified and reported using a
                  three-segment number, called the National Drug Code (NDC). FDA
                  assigns the first segment and drug firms assign the other two segments.
                  As drug firms introduce a new drug product, or discontinue a product,
                  they must report the complete NDC and associated information to FDA
                  as part of the drug product listing process.

                  A comprehensive list of drug products supports a variety of compliance
                  activities and health initiatives at FDA and other Federal agencies.
                  Examples of activities and initiatives include recalls of dangerous or
                  tainted drugs, bioterrorism response, drug importation, and NDC
                  barcoding of drug products.

                  FDA inputs drug product information into a database known as the Drug
                  Registration and Listing System (DRLS). If a drug firm does not list its
                  marketed drug products properly with FDA, they are deemed misbranded
                  and FDA can take enforcement action against the drug firm. At the time
                  of this study, every 3 months FDA extracted a database of all currently
                  listed drug products from the DRLS, known as the Directory. As of
                  February 2005, the Directory included 123,856 prescription drug products
                  listed with unique NDCs.

                  FDA is currently pursuing changes to facilitate the submission of drug
                  listing information and firm registration information by drug firms and
                  to improve industry compliance with mandatory submission of this
                  information to FDA, including provision of electronic submission
                  capability. These changes warrant revision of existing regulations, and
                  FDA is preparing to publish changes in a proposed rule.




OEI-06-05-00060   THE FOOD   AND   D R U G A D M I N I S T R AT I O N ’ S N AT I O N A L D R U G C O D E D I R E C T O RY            i
                                                                                               Report Template Version = 03-01-05_rev.07


E X E C U T I V E                     S U           M M A R Y 





                  To identify prescription drug products that were missing from the
                  Directory or that were still listed after they were discontinued, we
                  compared the Directory with a private industry database, First
                  DataBank’s National Drug Data File Plus™ (First DataBank). To
                  confirm the status of the NDCs identified, we reviewed documents
                  obtained from FDA and surveyed drug firms to determine the market
                  status of the drug products. Further, we examined FDA’s processes for
                  drug listing by interviewing FDA staff and reviewing procedural
                  guidelines. The findings in this report reflect the Directory as of
                  February 2005.


                  FINDINGS
                  The Directory is incomplete, with an estimated 9,187 prescription drug
                  products missing, primarily due to insufficient reporting by drug
                  firms. For 16 percent of missing NDCs, drug firms confirmed that they
                  did not submit the required FDA forms for listing the drug products. In
                  nearly all of the remaining cases in which drug firms claimed to have
                  submitted listing forms, evidence of submission was not provided or the
                  documentation provided was inconclusive. However, in 9 percent of cases,
                  firms’ claims to have submitted forms were corroborated by forms we
                  found in FDA’s files. In these cases, FDA had failed to appropriately
                  process the forms.
                  An estimated 5,150 marketed drug product listings are pending,
                  primarily because drug firms failed to submit complete listing
                  information and because of submission errors. For 94 percent of the
                  products in FDA’s pending file, firms failed to provide the information
                  required for listing. Drug firms’ most frequent errors were failure to
                  submit labels and insert materials and failure to provide manufacturer
                  information for a product they were repackaging or distributing.
                  The Directory is not accurate, with an estimated 34,257 drug products
                  no longer on the market or listed in error, primarily because drug
                  firms failed to report drugs taken off the market. Fifty-four percent of
                  inaccurately listed drug products resulted from drug firms’ failure to
                  submit forms to notify FDA that the drug was discontinued. An
                  additional 18 percent resulted from firms’ assigning new NDCs to existing
                  products and failing to discontinue the old ones. The remaining
                  inaccurately listed drug products were the result of drug firms’ going out
                  of business and not reporting product status (13 percent), drug firms’
                  reported unawareness that they had listed the drug product and


OEI-06-05-00060   THE FOOD   AND   D R U G A D M I N I S T R AT I O N ’ S N AT I O N A L D R U G C O D E D I R E C T O RY           ii
                                                                                                 Report Template Version = 03-01-05_rev.07



E X E C U T I V E               S U           M M A R Y



                    consequent failure to update drug product status with FDA
                    (13 percent), and FDA errors (3 percent).
                    FDA’s drug product listing process and lack of oversight contribute to
                    deficiencies in the Directory. FDA’s manual process for listing drug
                    products provides opportunities for errors that may cause NDCs to be
                    processed incompletely or incorrectly. Procedural breakdowns are evident
                    by the number of NDCs in the pending file or not listed even though the
                    appropriate listing forms from drug firms were present in FDA’s files.
                    Additionally, FDA has neither finalized guidance documents for listing
                    procedures nor established adequate avenues of communication,
                    according to drug firms. Further, the Directory is not updated timely and
                    is cumbersome for firms to use to verify their listings. Inadequacies such
                    as these may deter drug firms from listing drug products or following up
                    to verify listings.

                    Although FDA is aware that firms fail to submit drug products for listing,
                    FDA staff reported to us that they do not actively pursue information
                    about unlisted drug products. As of August 2005, FDA had not taken
                    enforcement action against any drug firm solely on the basis of its failure
                    to list drug products or update listings, although FDA has added listing
                    failures to charges when taking action against firms for other violations.


                    RECOMMENDATIONS
                    FDA should:

                        • Finalize guidance documents for submission of forms to list drug
                          products,

                        • Assume greater control over the assignment of NDCs,

                        • Continue efforts to implement electronic submission of listing forms
                          by drug firms,

                        • Implement a mechanism to routinely identify omissions and

                          inaccuracies in the Directory, 


                        • Resolve the status of drug product listings in the pending file,

                        • Enhance communication with drug firms, and

                        • Identify and take appropriate action against drug firms that
                          consistently fail to list drug products and update information.




  OEI-06-05-00060   THE FOOD   AND   D R U G A D M I N I S T R AT I O N ’ S N AT I O N A L D R U G C O D E D I R E C T O RY          iii
                                                                                               Report Template Version = 03-01-05_rev.07




                  AGENCY COMMENTS
                  FDA concurred with each recommendation and requested access to our
                  data files to follow up on identified problems. In its response, FDA
                  delineated a number of initiatives it expects will improve the Directory’s
                  completeness and accuracy, such as conversion to an electronic listing
                  system for use by drug firms. While FDA acknowledged the existence of
                  many missing and inaccurately listed drug products, it stated that our
                  results show a marked decrease in the percentage of missing drug
                  products since 1990. FDA also expressed concerns with the study’s
                  methodology, which it believes potentially resulted in our overestimation
                  of the extent of problems with the Directory.


                  OFFICE OF INSPECTOR GENERAL RESPONSE
                  We will provide access to our data files so that FDA can follow up on the
                  problems identified in this report.

                  In response to FDA’s concerns with our study methodology, we believe
                  that the methodology was appropriate for the purpose of identifying
                  missing or inaccurate drug products and did not overestimate the extent
                  of problems. We acknowledge the apparent decline in the percentage of
                  missing drug products, and we continue to recommend that FDA
                  implement the actions described to address the remaining issues
                  identified and ensure that the Directory is complete and accurate.




OEI-06-05-00060   THE FOOD   AND   D R U G A D M I N I S T R AT I O N ’ S N AT I O N A L D R U G C O D E D I R E C T O RY           iv
                                                                        Report Template Version = 03-01-05_rev.07




Δ   T A B L E          O F           C O N T E N T S                              




         EXECUTIVE SUMMARY ....................................
i


         INTRODUCTION ........................................... 1




         FINDINGS ................................................. 7

                   The Directory is incomplete due to missing drug products . . . . . . . 7 


                   Additional drug product listings are pending . . . . . . . . . . . . . . . . . 8 


                   The Directory is inaccurate . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 10 


                   FDA contributes to incompleteness and inaccuracies . . . . . . . . . . 11 




         R E C O M M E N D A T I O N S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 14 

                   Agency comments . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 16 


                   Office of Inspector General response . . . . . . . . . . . . . . . . . . . . . . . 16 



         E N D N O T E S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 18 



         A P P E N D I X E S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 20 

                   A: FDA’s Current Drug Listing Process . . . . . . . . . . . . . . . . . . . . 20 


                   B: Detailed Methodology . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 21 


                   C: Confidence Intervals . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 27 


                   D: Agency Comments . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 30 




         A C K N O W L E D G M E N T S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 36 

                                                                                            Report Template Version = 03-01-05_rev.07




Δ      I N T R O D U C T I O N                                              



                      OBJECTIVE
                      To determine (1) whether the Food and Drug Administration’s (FDA)
                      National Drug Code Directory (the Directory) is a complete and
                      accurate listing of currently marketed prescription drug products; and
                      (2) if the Directory is not complete or accurate, those factors that
                      contribute to missing or obsolete product listings.


                      BACKGROUND
                      The Drug Listing Act of 1972 (the Act) requires drug firms engaged in
                      manufacturing, preparation, propagation, compounding, or processing
                      drugs to report all drug products to FDA.1 Pursuant to the Act and
                      implementing regulations, the process of new drug product reporting,
                      known as “listing,” is to occur within 5 days of the establishment’s first
                      entry into one of these operations and be updated thereafter twice each
                      year.2 In addition, certain changes to drug product information, e.g.,
                      discontination, must be reported to FDA twice yearly.3, 4
                      Mandatory listing by drug firms promotes FDA’s mission to protect the
                      public by ensuring the safety, efficacy, and security of human drug
                      products. Drug products that are not properly listed are considered
                      “misbranded” and the firms that are responsible may be subject to
                      criminal or regulatory action.5 According to FDA officials, as of August
                      2005, FDA had not taken any such action against a firm solely on the
                      basis of its failure to list drug products, although it has added listing
                      failures to charges when taking action against firms for other
                      violations.

                      A comprehensive list of drug products supports a variety of compliance
                      activities and health initiatives at FDA and other Federal agencies,
                      such as recalls of dangerous or tainted drugs, bioterrorism response,
                      and barcoding certain drugs with drug product universal identifiers,
                      known as National Drug Codes (NDC). 6,7
                      NDCs uniquely identify each drug product. They were originally
                      developed for outpatient drug reimbursement under Medicare, but
                      were later used for other purposes. Currently, for example, the
                      Centers for Medicare & Medicaid Services uses NDCs to assess
                      compliance with program requirements for participation in the
                      Medicaid Drug Reimbursement and Rebate programs. NDC
                      information is also vital for importation of drug products. Border


    OEI-06-05-00060   THE FOOD   AND   D R U G A D M I N I S T R AT I O N ’ S N AT I O N A L D R U G C O D E D I R E C T O RY           1
                                                                                        Report Template Version = 03-01-05_rev.07




I N T R O D       U C T            I O N


                  agents routinely verify drug product NDCs with FDA before allowing
                  drugs to enter the United States.
                  National Drug Code Directory
                  FDA maintains a publicly accessible database of drug manufacturers
                  and drug products called the Directory. As of February 2005, the
                  Directory contained 123,856 drug product listings, each with a unique
                  NDC. The Directory reflects FDA’s knowledge of drug products in
                  commercial distribution. The Directory is supposed to include every
                  drug firm that markets prescription, over-the-counter and homeopathic
                  drugs, and an NDC for every such product currently on the market.

                  The Directory is FDA’s inventory of drug facilities and commercially
                  marketed drug products; therefore, it plays a significant role in
                  protecting public health. FDA and others use information in the
                  Directory when they perform many functions, such as inspecting drug
                  facilities, identifying ingredients for marketed drug products,
                  managing drug recalls and withdrawals, dealing with drug shortages,
                  verifying drug imports, identifying medication errors, monitoring
                  adverse drug experiences, and evaluating drug impacts of natural
                  disasters and terrorist threats. In addition, NDCs are almost
                  universally used to identify drug products in pharmaceutical billing
                  and reimbursement systems and in drug information resources.

                  FDA’s system for collecting and maintaining drug product information
                  from firms is known as the Drug Registration and Listing System
                  (DRLS). Drug firms submit their drug products’ NDC information to
                  FDA using Forms FDA-2657 or FDA-2658.8, 9 Once the forms are
                  received, data are entered into the DRLS by staff contracted to perform
                  this function. During calendar year 2004, 15 full-time contract
                  employees processed 19,601 forms from drug firms. A flowchart
                  depicting FDA’s drug listing process is included in Appendix A.

                  A drug product and its associated NDC may reside in one of three
                  databases within the DRLS:

                    • 	 The DRLS Listed Drug File—currently marketed drug products
                        that were successfully listed; this file is the source of the
                        Directory and, at the time of this study, was extracted every
                        3 months.

                    • 	 The DRLS Discontinued Drug File—discontinued drug products
                        that were listed but are no longer on the market as reported by
                        firms or known to FDA.


OEI-06-05-00060   THE FOOD   AND   D R U G A D M I N I S T R AT I O N ’ S N AT I O N A L D R U G C O D E D I R E C T O RY           2
                                                                                        Report Template Version = 03-01-05_rev.07




 I N T R O D        U C T             I O N


                    • 	 The DRLS Pending Drug File—drug products for which the
                        listing process is not complete.10
                  An NDC consists of three numeric segments. The first segment is a
                  labeler code, the second segment is a product code, and the final
                  segment is a package code.11 While FDA is ultimately responsible for
                  assigning NDCs, it currently only assigns the labeler code segment.
                  The labeler code is the unique identifier for each drug firm and is
                  assigned when the firm registers with FDA.12 Drug firms assign the
                  product and package code segments of the NDCs. The product code
                  identifies the strength, dosage form, and formulation of the particular
                  product, and the package code identifies the size and type of package.
                  Combining these segments produces a 10-digit number. 13
                  Drug Industry Product Databases
                  The drug industry has developed several commercially available
                  databases listing drug products and associated NDCs. These
                  databases exist primarily to provide users with pricing and use
                  information. One of the more prominent and frequently used
                  commercially available databases is First DataBank’s National Drug
                  Data File Plus™, hereafter referred to as First Databank, which is
                  used by both private industry and Government agencies. 14 As with
                  FDA’s Directory, First Databank relies almost exclusively upon drug
                  firms to report drug products and their associated NDCs. In contrast
                  to required reporting to FDA, firms voluntarily report to First
                  DataBank; however, First DataBank staff report that they actively
                  pursue information and updates from drug firms.15
                  Past Study of FDA’s Drug Databases
                  A 1991 study by the Office of Inspector General (OIG), “The FDA
                  Prescription Drug File,” identified problems with the listing process
                  and inadequacies in the DRLS data files.16 OIG found that the
                  Directory was neither complete nor totally accurate. An estimated
                  8,000 products were on the market but not listed and an estimated
                  1,400 products were inaccurately listed. The OIG report attributed
                  these shortcomings primarily to firms’ failures to supply the
                  prerequisite information for listing. Other deficiencies included lack of
                  quality control in DRLS processes, limited procedural guidelines,
                  inadequate systems software, uncertain legal authority, and unclear
                  data requirements for the industry. Recommendations to FDA
                  included clarifying data requirements for industry, developing internal
                  quality control procedures for manual data processing, and ensuring


OEI-06-05-00060   THE FOOD   AND   D R U G A D M I N I S T R AT I O N ’ S N AT I O N A L D R U G C O D E D I R E C T O RY           3
                                                                                        Report Template Version = 03-01-05_rev.07




 I N T R O D        U C T             I O N


                  effective use of a new ORACLE data system developed to support the
                  DRLS.
                  In response to these recommendations, FDA took steps to strengthen
                  the drug product listing process and to streamline data entry
                  procedures. For example, FDA added automated error checking to the
                  ORACLE data system and implemented procedures to barcode
                  incoming documents to better track listing information received from
                  drug firms. Further, FDA developed a clear set of internal guidelines
                  for processing forms and information. According to FDA officials,
                  associated staffing levels were increased by 52 percent during the next
                  7 years. However, in subsequent years, the staffing levels have
                  dropped to below pre-1991 levels. In acknowledging the reduction,
                  FDA officials provided no explanation for the decline. The DRLS
                  database has expanded from 39,000 prescription drug products in 1990
                  to more than 120,000 products in 2005 and the number of listing forms
                  processed each year has more than doubled.
                  FDA’s Proposed Changes to the Listing Process
                  Although changes in the early 1990s improved the FDA listing process,
                  additional improvements are currently being pursued. For example,
                  FDA is pursuing implementation of electronic submissions of listing
                  information by firms. In 2001, FDA pilot-tested the feasibility of
                  electronic submission of information from firms for listing NDCs and
                  providing updates. According to FDA officials, the pilot project
                  provided valuable lessons as FDA moves toward full implementation.
                  Implementation timeframes were uncertain as of January 2006 when
                  OIG discussed the status of this initiative with FDA. Regulatory
                  changes necessary to implement the system are underway with the
                  expectation that the system will take a few years to become fully
                  operational.


                  METHODOLOGY
                  This study compared NDC listings for prescription drug products in
                  the Directory to NDCs in First DataBank as of February 2005. First
                  DataBank was chosen as the basis for the comparison because it is
                  widely used by both private industry and Government agencies and
                  because it was used for the 1991 OIG study. The comparison of the
                  NDCs in the Directory to those in First DataBank served to identify
                  both currently marketed prescription drug products not listed with
                  FDA and discontinued prescription drug products inaccurately listed


OEI-06-05-00060   THE FOOD   AND   D R U G A D M I N I S T R AT I O N ’ S N AT I O N A L D R U G C O D E D I R E C T O RY           4
                                                                                          Report Template Version = 03-01-05_rev.07




I N T R O D        U C T        I O N


                    with FDA as still on the market. We contacted drug firms to verify the
                    market status of a random sample of missing and possibly
                    discontinued drug products. Further, we obtained drug firms’ insights
                    into and experiences with the listing process through a survey. We
                    performed onsite case reviews and observations at FDA to enhance our
                    knowledge of the listing process. (See Appendix B for a detailed
                    description of the methodology.)

                    This study focused on drug products falling into the following three
                    mutually exclusive groups as of February 2005, after we matched FDA
                    and First DataBank databases:
                        • 	 Group 1: Missing NDCs—NDCs that were in First Databank,
                            but were not in the Directory or the FDA pending file;

                        • 	 Group 2: Pending NDCs—NDCs that were in FDA’s pending
                            file and in First DataBank, but not in the Directory; and

                        • 	 Group 3: Discontinued NDCs—NDCs that were in the
                            Directory, but were not in First DataBank.

                    To adjust match results to exclude NDCs for drug products no longer
                    on the market, we randomly selected samples from each group to verify
                    with the drug firms.

                    A simple random sample of 100 NDCs was taken from the 13,163
                    NDCs in Group 1 and a simple random sample of 100 NDCs was taken
                    from the 5,479 NDCs in Group 2, to equal 200 NDCs that were in First
                    DataBank and not listed in the Directory. For these samples, we
                    examined FDA files to determine whether FDA had received the
                    required Form FDA-2657/2658 to list the new drug products or to
                    change information or status for drug products already listed. For the
                    pending NDCs (Group 2), we requested information from FDA to
                    explain why the drug product listings were pending. Additionally, we
                    sent information requests to drug firms to determine whether the
                    products corresponding to each NDC were on the market and whether
                    drug firms submitted the necessary forms to list them. We asked drug
                    firms to provide documentation of their submissions, i.e., a copy of the
                    Form FDA-2657/2658 they had submitted.

                    For Group 3, we selected a simple random sample of 200 from the
                    94,682 NDCs to determine the proportion of drugs in the Directory that
                    were discontinued or listed in error. We examined FDA files to
                    determine whether a Form FDA-2657/2658 had been submitted to
                    discontinue the listing. We sent information requests to the drug firms

 OEI-06-05-00060    THE FOOD   AND   D R U G A D M I N I S T R AT I O N ’ S N AT I O N A L D R U G C O D E D I R E C T O RY           5
                                                                                        Report Template Version = 03-01-05_rev.07




I N T R O D       U C T        I O N

                  to find out whether the drug products were on the market and, if not,
                  whether the drug firms had submitted the necessary forms to
                  discontinue the listing (again requesting copies of Forms
                  FDA-2657/2658 submitted).

                  We calculated estimates by generalizing the results from the sample
                  findings to the respective populations based on a 95-percent confidence
                  interval. Each confidence interval estimated the range of values that
                  was likely to include the population parameter. Upper and lower
                  boundaries of the confidence limits are reported in Appendix C.

                  When we had questions about information in FDA files from any of the
                  three groups, we contacted FDA staff. They provided clarification or
                  additional information as needed. We also contacted drug firms when
                  we needed clarification or further information.
                  Data Limitations
                  Because drug firms are not required to list with First DataBank, that
                  database does not include all drug products from all drug firms.
                  Consequently, our analyses underestimate the number of NDCs
                  missing from the Directory. The extent of underestimation is
                  unknown.
                  Quality Standards
                  This study was conducted in accordance with the “Quality Standards
                  for Inspections” issued by the President’s Council on Integrity and
                  Efficiency and the Executive Council on Integrity and Efficiency.




OEI-06-05-00060   THE FOOD   AND   D R U G A D M I N I S T R AT I O N ’ S N AT I O N A L D R U G C O D E D I R E C T O RY           6
                                                                                            Report Template Version = 03-01-05_rev.07




Δ     F I N D I N G S 



        The Directory is incomplete, with an           The Directory, consisting of 123,856
           estimated 9,187 prescription drug           drug products as of February 2005, is
                                                       missing an estimated 9,187 drug
          products missing, primarily due to
                                                       products that are listed in First
         insufficient reporting by drug firms
                                                       DataBank. (See Appendix C for
                      confidence intervals for estimates.) These drug products were on the
                      market and listed in First DataBank, but unlisted with FDA. We
                      found that 28 percent of the 47,814 drug products listed in First
                      DataBank were not listed with FDA. This finding confirms that firms
                      do not always list drug products with FDA, even when they list them
                      with First DataBank.

                      The timing of the submissions to both First DataBank and the
                      Directory does not appear to have caused the discrepancy. Because
                      drug firms are required to list a drug product with FDA within 5 days
                      of first manufacturing, distributing, or repackaging drugs and to
                      update this information twice each year thereafter, a drug product
                      should rarely be listed with a private database before it is listed with
                      FDA. We checked the length of time drug products were listed in First
                      DataBank and found that more than three-fourths of the drug products
                      missing from the Directory were listed with First DataBank for longer
                      than 1 year, suggesting that they had been on the market for at least
                      that long without being reported to FDA.
                      Missing drug products primarily result from firms’ failure to submit
                      required forms
                      For an estimated 16 percent of the missing drug products that are
                      currently on the market, drug firms confirmed that they did not submit
                      the appropriate listing forms (see Table 1). Drug firms gave no
                      explanation for not submitting forms. For 28 percent of drug products,
                      drug firms reported submitting forms to FDA; however, they were unable
                      to provide evidence of the submission and no evidence was found in FDA’s
                      files. Drug firms reported submitting listings for 46 percent of missing
                      drug products and provided evidence; however, the documentation was
                      insufficient or questionable and, consequently, we were unable to
                      substantiate the claims. For example, some drug product listings were
                      submitted to FDA after our request for data, which was reflected in the
                      documentation submitted to us by the firms. However, we did find
                      evidence of listing in FDA files for 9 percent of unlisted products that are
                      currently on the market.




    OEI-06-05-00060   THE FOOD   AND   D R U G A D M I N I S T R AT I O N ’ S N AT I O N A L D R U G C O D E D I R E C T O RY           7
                                                                                                Report Template Version = 03-01-05_rev.07




F   I N D I N G        S         





                       Table 1: Reasons Drug Products Were Missing From the Directory
                                                                                                                                                        95%
                                                                                                                                     Estimated   Confidence
                       Reason                                                                                                       Percentage      Interval
                       Firm reported its product was listed and provided
                       evidence of submission, but the evidence was
                       questionable.                                                                                                      46.3        ± 12.3
                       Firm reported its product was listed, but did not provide
                       evidence of submission and no evidence was found in
                       FDA files.                                                                                                         28.4        ± 11.1
                       Firm reported it did not list its drug product.                                                                    16.4         ± 9.1
                       Firm reported its product was listed and we found
                       corroborating evidence of submission in FDA files.                                                                  9.0        ± 5.6
                       Source: OIG analysis of a sample of missing NDCs for products that are currently on the market.



                      Some drug firms have never listed their products with FDA even though
                      they have drug products currently on the market
                      Specifically, we found that 23 drug firms that registered with FDA and
                      have been assigned a labeler code (the portion of the NDC assigned by
                      FDA to designate the firm) had listed drug products in First DataBank
                      but never with FDA. In an extreme case, one firm has listed 1,932
                      drug products in First DataBank for at least 8 years but has never
                      listed any products with FDA. We also found that nine firms with
                      products listed in First DataBank had labeler codes that had not been
                      assigned by FDA.
                                                           Drug products in pending status
             An estimated 5,150 marketed drug              are not in the Directory even
         product listings are pending, primarily           though they may be on the market.
            because drug firms failed to submit            We found that 94 percent of
               complete listing information and            pending prescription drug products
                 because of submission errors              (5,150) at FDA that are listed with
                                                           First DataBank are currently on
                      the market. This group of drugs should be in the Directory. The
                      primary reasons these drug products were pending were that the drug
                      firms had failed to provide all required information and had made
                      errors in completing the forms. Table 2 shows all the reasons drug
                      product listings were placed in pending status. Many drug products
                      were in the pending file for multiple reasons.




    OEI-06-05-00060   THE FOOD       AND   D R U G A D M I N I S T R AT I O N ’ S N AT I O N A L D R U G C O D E D I R E C T O RY                       8
                                                                                               Report Template Version = 03-01-05_rev.07




F   I N D I N G       S         




                          Table 2: Reasons Drug Product Listings Were in the DRLS Pending File
                                                                                                                                                       95%
                                                                                                                                   Percentage   Confidence
                          Reason                                                                                                     of NDCs*      Interval
                          Firm failed to submit required label and/or insert
                          material.                                                                                                      40.4          ± 10.0
                          Repackager/distributer failed to provide complete
                          and/or accurate manufacturer information on the listing
                          form.                                                                                                          39.4          ± 10.0
                          Manufacturer had not registered and listed the product
                          with FDA when the repackager/distributor submitted its
                          listing.                                                                                                       34.0           ± 9.6
                          Error in form completion or missing information, other
                          than manufacturer information and label.                                                                       11.7            ± 6.6
                          Unknown.                                                                                                        2.1   - 1.8 / +5.4**
                          *Totals more than 100 percent because some drug product listings were pending for more than
                          one reason.
                          **To adjust for invalid results because of the small number, this confidence interval was calculated
                          with an exact method based on the binomial distribution.
                          Source: OIG analysis of a sample of pending drug products on the market. Reasons were provided by FDA.



                      Drug firms’ failure to submit the required labels and/or inserts was the
                      reason 40 percent of NDCs remained in the DRLS pending file. Drug
                      firms that repackage and distribute drugs manufactured by other
                      companies are required to assign their own NDCs to the repackaged
                      products and submit Form FDA-2657/2658 with information about the
                      manufacturer and manufacturing site. If the drug product’s original
                      manufacturer has not yet listed the product with FDA, FDA will not
                      allow the repackager to list the repackaged product and sends the
                      submission back to the repackager. Many repackagers reported that
                      making sure their submission of Form FDA-2657/2658 arrives at FDA
                      after the manufacturer has listed the original product and obtaining
                      the requisite information, e.g., site registration number, from these
                      manufacturers is problematic. Repackagers/distributors’ failure to
                      provide complete and accurate information about the manufacturer
                      was the reason 39 percent of the drug products were in the DRLS
                      pending file. An additional 34 percent were pending because the
                      manufacturer had not listed the original product with FDA. Other
                      errors in submissions accounted for only 12 percent of pending NDCs.
                      The reason for pending status was unknown for 2 percent of drug
                      products sampled.

    OEI-06-05-00060   THE FOOD      AND   D R U G A D M I N I S T R AT I O N ’ S N AT I O N A L D R U G C O D E D I R E C T O RY                         9
                                                                                                Report Template Version = 03-01-05_rev.07




    F   I N D I N G       S


                          Lack of followup by drug firms with FDA to verify that drugs have
                          been listed contributes to drug product listings’ remaining in the DRLS
                          pending file. Many drug product listings have been in a pending status
                          for years, averaging 26 months as of February 2005. In explaining the
                          status of the pending listings, FDA stated that from 2001 to 2005 it
                          discontinued its follow-up process of alerting firms of deficiencies in
                          their listing submissions. As a result, drug firms only discovered
                          problems with listings after they initiated contact with FDA; after they
                          used FDA’s Directory to determine the status of listings; or after a
                          problem arose because a drug product was not in the Directory, e.g.,
                          products held at the border because U.S. Customs was unable to verify
                          the listing. Only 41 percent of drug firms surveyed reported routinely
                          verifying drug product listings.

                                                              An estimated 36 percent of drug
The Directory is not accurate, with an estimated              products that were in the Directory
34,257 drug products no longer on the market or               and not in First DataBank were no
listed in error, primarily because to drug firms              longer on the market or were listed
failed to report drugs taken off the market                   in error. When products are
                                                              removed from the market, drug firms
                          are required to notify FDA that their product has been discontinued.
                          FDA will remove the drug product from the Directory. Additionally,
                          when firms assign a new NDC to an existing product they are required
                          to notify FDA in accordance with FDA regulations.17 Drug firms
                          accounted for most inaccuracies by failing to discontinue drug product
                          listings when they removed products from the market, assigned new
                          NDCs, or went out of business. Fifty-four percent of drug products
                          that were no longer on the market were still listed as active because
                          drug firms failed to submit appropriate forms to notify FDA that the
                          drugs were discontinued (see Table 3). Drug firms assigned new NDCs
                          to 18 percent of the drugs in this group and failed to discontinue the
                          old NDC listings. Drug firms no longer in business accounted for an
                          additional 12.5 percent of drug product listings that should have been
                          discontinued. For 12.5 percent of drug products that should not have
                          been in the Directory, the firms reported they had never listed them,
                          although evidence found in FDA’s files suggests otherwise. FDA
                          errors, e.g., products listed inappropriately by FDA as prescription
                          drugs, accounted for less than 3 percent of the drug products in our
                          sample.




        OEI-06-05-00060   THE FOOD   AND   D R U G A D M I N I S T R AT I O N ’ S N AT I O N A L D R U G C O D E D I R E C T O RY      10
                                                                                               Report Template Version = 03-01-05_rev.07


   F    I N D I N G       S         





                          Table 3: Reasons Drugs No Longer on the Market Remained in the
                          Directory
                                                                                                                                                       95%
                                                                                                                                   Percentage   Confidence
                          Reason*                                                                                                     of NDCs      Interval
                          Firm failed to notify FDA when the drug was taken off
                          the market.                                                                                                    54.2         ± 11.8
                          Firm assigned a new NDC to the product and failed to
                          notify FDA it had discontinued the old one.                                                                    18.1          ± 9.1
                          Firm closed or went out of business and failed to notify
                          FDA.                                                                                                           12.5           ± 7.8
                          Firm was unaware that the NDC was ever listed.                                                                 12.5           ± 7.8
                          FDA error.                                                                                                      2.8    -2.5 / +6.9*
                          *To adjust for invalid results because of the small number, this confidence interval was calculated
                          with an exact method based on the binomial distribution.
                          Source: OIG analysis of a sample of NDCs no longer on the market.



                                                   Listing drug products and reporting NDCs
FDA’s internal drug product listing                to FDA is a manual process in which drug
process and lack of oversight                      firms submit paper forms and data entry
contribute to deficiencies in the                  clerks manually enter the information into
Directory                                          the computer. As with any manual process,
                                                   substantial procedural controls are required
                         to ensure that paperwork is not misplaced and data are entered timely
                         and correctly. While FDA’s listing procedures were strengthened
                         following the 1991 OIG report, the listing process remains an issue.
                         The thousands of pending drug product listings and failed postings at
                         FDA indicate that procedural breakdowns at FDA are occurring and
                         oversight is deficient.
                         Submission of information on paper forms followed by manual data entry
                         sometimes contributes to procedural breakdowns
                         FDA’s failure to properly process submitted forms caused 9 percent of
                         drug products that were on the market to remain unlisted. In these
                         cases, we found documentation in FDA files that the proper documents
                         were submitted. Additionally, FDA data entry errors caused nearly
                         3 percent of drug products that should not have been in the listing to
                         appear there. Specifically, drug product listings that should have been
                         placed in the FDA pending file were filed away and not addressed, and
                         NDCs for drug products that are treated as prescription drugs in some
                         States were not listed.




       OEI-06-05-00060   THE FOOD   AND   D R U G A D M I N I S T R AT I O N ’ S N AT I O N A L D R U G C O D E D I R E C T O RY                      11
                                                                                            Report Template Version = 03-01-05_rev.07




F   I N D I N G 
S



                      FDA has yet to finalize guidance for listing drug products
                      Although FDA’s guidance for listing products is readily accessible on 

                      the Internet, the guidance remains in draft form.18 The guidance 

                      document, “Guidance for Industry: Forms for Registration of 

                      Producers of Drugs and Listing of Drugs in Commercial Distribution,” 

                      which was posted in 2001, may confuse drug firms trying to locate 

                      current guidelines because the document’s cover states “this guidance 

                      document is being distributed for comment purposes only.” Moreover, 

                      although we found that the draft document reflects the current 

                      process, 25 percent of drug firms we surveyed claim FDA’s guidance is 

                      inadequate. 

                      Avenues of communication are lacking, according to drug firms
                      To contact FDA staff, drug firms have the option of using mail,
                      telephone, or e-mail. While several surveyed drug firms commented
                      positively on the quality of interactions with FDA staff, stating that
                      FDA staff are helpful, willing to explain, competent, and courteous,
                      many reported that contacting FDA is problematic. Survey responses
                      suggested that either drug firms are unaware of available options for
                      communicating with FDA, or FDA staff response may not be timely.
                      Drug firms reported that when they use the telephone number
                      provided by FDA, they reach a recording requesting that they leave a
                      message and someone will respond. Although FDA staff may respond
                      within a 24-hour period as publicized, some surveyed drug firms report
                      that this callback process frequently leads to “telephone tag,”
                      lengthening the time to resolve an issue.
                      The Directory is not updated timely and is cumbersome for firms to use to
                      verify their listings
                      As previously mentioned, drug firms’ lack of followup to ensure
                      successful listing with FDA contributes to drug product listings’
                      remaining in FDA’s pending file. Surveyed firms said that when they
                      do check with FDA to verify a listing, they frequently check FDA’s Web
                      site, which gives access to the Directory. While the Directory is readily
                      accessible, several firms raised concerns that it is updated too
                      infrequently, i.e., once every 3 months. Another concern with Web site
                      verification is that NDCs can only be looked up one at a time; thus,
                      checking the firm’s listings becomes increasingly cumbersome as the
                      number of listings rises. Some drug firms call FDA to verify individual
                      drug listings or to request printouts they can review; however, this
                      contact can be time-consuming to both FDA and drug firm staff.


    OEI-06-05-00060   THE FOOD   AND   D R U G A D M I N I S T R AT I O N ’ S N AT I O N A L D R U G C O D E D I R E C T O RY      12
                                                                                            Report Template Version = 03-01-05_rev.07




F   I N D I N G       S



                      FDA provides limited oversight and enforcement to ensure that drug firms
                      list drug products and provide status updates
                      In 1991, OIG reported that incompleteness and inaccuracies in the
                      Directory were primarily attributable to drug firms’ failure to supply
                      requisite information for listing. Despite this finding, FDA staff
                      reported to us that they still do not actively monitor firms to identify
                      unlisted drug products or listings of drug products no longer on the
                      market. They do not currently match the Directory with other drug
                      product listing data sources. Failure to monitor firms’ reporting
                      results in some drug firms’ completely ignoring listing requirements.
                      As mentioned earlier, one such firm has nearly 2,000 drug products in
                      First DataBank but none in the Directory. As of August 2005, FDA
                      staff reported to us that no regulatory action has been taken thus far
                      against any drug firm solely on the basis of its failure to list drug
                      products or provide updates, although FDA has added listing failures
                      to charges when taking action against firms for other violations.




    OEI-06-05-00060   THE FOOD   AND   D R U G A D M I N I S T R AT I O N ’ S N AT I O N A L D R U G C O D E D I R E C T O RY      13
                                                                                            Report Template Version = 03-01-05_rev.07




Δ      R E C O M M E N D A T I O N S                                                                 


                      The results of this review demonstrate that the Directory is neither
                      complete nor accurate. We identified thousands of missing drug
                      products that firms should have listed with FDA and many more drug
                      products inaccurately listed as still on the market. Because drug
                      product listing with FDA is not optional, most omissions and
                      inaccuracies are directly related to drug firms’ failure to meet Federal
                      requirements to list their products.

                      The failure of firms to list drug products with FDA limits the
                      usefulness of the Directory to all who rely on it for timely information
                      about prescription drugs currently on the market. For example, FDA’s
                      initiative to prevent medication errors by requiring manufacturers to
                      place NDC barcodes on certain drug products may in turn depend on
                      FDA providing a complete listing of NDCs. The current Directory
                      would inhibit FDA’s ability to do this.

                      FDA should address issues with the drug product listing process to
                      ultimately create a more complete, accurate, and reliable Directory.
                      Specifically, we recommend that FDA:
                      Finalize Guidance Documents for Submission of Forms To List Drug
                      Products
                      Because electronic submission of listings will take some time to become
                      operational, FDA should finalize the current draft guidance issued in
                      2001 and referenced on its Web site. Additionally, any changes to the
                      process based on this report’s findings and any action by FDA in
                      response to this report should be included in the finalized document.
                      A review of common submission errors may be helpful for suggesting
                      enhancements to the guidance document.
                      Assume Greater Control Over the Assignment of NDCs
                      Were FDA to take more control of the NDC assignment process, e.g., by
                      assigning all parts of NDCs, it might largely prevent NDCs associated
                      with drug products on the market from being omitted from the DRLS
                      and, consequently, the Directory.
                      Continue Efforts To Implement Electronic Submission of Listing
                      Forms by Firms
                      Electronic filing of drug registration and listing information will facilitate
                      the timely exchange of information between FDA and firms. The current
                      system, in which drug firms submit Form FDA-2657/2658 and clerks
                      manually enter the information into the system, is labor intensive and
                      time consuming both for drug firms and for FDA. An electronic process


    OEI-06-05-00060   THE FOOD   AND   D R U G A D M I N I S T R AT I O N ’ S N AT I O N A L D R U G C O D E D I R E C T O RY      14
                                                                                            Report Template Version = 03-01-05_rev.07




R   E C O        M M E N D A T                    I O N               S


                      would allow FDA to redirect resources toward other areas of the listing
                      process such as communication with firms.
                      Implement a Mechanism To Routinely Identify Drug Product
                      Omissions and Inaccuracies in the DRLS and, Subsequently, the
                      Directory
                      FDA could routinely compare the Directory with other Government
                      databases and commercial databases to identify unlisted or discontinued
                      drug products. Although private industry databases, because of their
                      voluntary nature, will never include all drug products, they provide a
                      readily accessible means of identifying a significant portion of unlisted or
                      discontinued drug products.
                      Resolve the Status of Drug Product Listings in the DRLS Pending
                      File
                      The current procedure for following up on deficient submissions should
                      prevent further accumulation in the pending file. However, previous
                      submissions already in the pending file should be resolved with firms and
                      either listed or dropped.
                      Enhance Communication With Drug Firms To Facilitate Accurate
                      and Complete Reporting of Drug Product Listings
                      FDA should expand firms’ ability to verify submitted drug product
                      listings. Drug firms we surveyed commented frequently on the
                      difficulty they experience when verifying drug listings. To address
                      their concerns, FDA could improve the Web site reporting function to
                      allow drug firms to easily generate a complete listing of their drug
                      product NDCs so it could update the Directory more frequently.

                      FDA could also provide more timely assistance options for drug firms
                      with questions about submitting data or other problems. Options
                      could include a customer service hotline or a quick-response e-mail
                      address.
                      Identify and Take Appropriate Action Against Drug Firms That
                      Consistently Fail To List Drug Products and Update Information
                      Many drug firms fail to comply with listing regulations. The lack of
                      enforcement actions by FDA against drug firms that consistently do
                      not comply provides little incentive for drug firms to complete and
                      submit forms.




    OEI-06-05-00060   THE FOOD   AND   D R U G A D M I N I S T R AT I O N ’ S N AT I O N A L D R U G C O D E D I R E C T O RY      15
                                                                                        Report Template Version = 03-01-05_rev.07




                  AGENCY COMMENTS
                  FDA concurred with each recommendation and requested access to our
                  data files to follow up on identified problems. In its response, FDA
                  listed a number of initiatives it expects will improve the Directory’s
                  completeness and accuracy, such as its planned implementation of an
                  electronic listing system for use by drug firms. While FDA
                  acknowledged the problem of missing and inaccurately listed drug
                  products in its DRLS, it stated that our results show a marked decline
                  in the extent of drug product listing problems. The ratio of missing
                  drug products to the overall number of drug products in the Directory
                  is much lower than reported in our 1990 report.

                  In its comments, FDA also stated that our study methodology
                  potentially resulted in an overestimation of the extent of problems with
                  the Directory. Concerns included the use of First DataBank as a basis
                  for comparison, sample size, and the exclusion of two groups of NDCs
                  from sampling. Additionally, FDA pointed out that our finding that 36
                  percent of drug products listed were no longer on the market or were
                  listed in error was not representative of the entire Directory; rather,
                  the finding only applied to the group of NDCs that were in the
                  Directory and not in First DataBank. The full text of FDA’s comments
                  is in Appendix D.


                  OFFICE OF INSPECTOR GENERAL RESPONSE
                  We will provide access to our data files so that FDA can follow up on
                  the problems identified in this report.

                  In response to FDA’s concerns about our use of First DataBank as a
                  basis for comparison, we agree that the objectives of the Directory and
                  First DataBank differ and that First DataBank is not intended to be a
                  complete listing of all drugs currently on the market. However, a more
                  complete listing would likely have identified a greater number of drug
                  products that are on the market and not listed in the Directory. In
                  other words, use of First DataBank likely resulted in an
                  underestimation of the extent of missing NDCs.

                  Regarding the second concern, while a larger sample may have reduced
                  the confidence intervals around the estimates, the sample sizes were
                  sufficient to accurately quantify the problems cited. These estimates
                  were calculated using appropriate sampling techniques and do not lead
                  either to underestimation or to overestimation.

OEI-06-05-00060   THE FOOD   AND   D R U G A D M I N I S T R AT I O N ’ S N AT I O N A L D R U G C O D E D I R E C T O RY      16
                                                                                        Report Template Version = 03-01-05_rev.07




                  FDA’s third concern was with our exclusion of two groups of NDCs
                  from sampling. These excluded groups contain the NDCs in both the
                  Directory and First DataBank and those NDCs pending with FDA.
                  The purpose of this study was not to provide an overall error rate, but
                  rather to identify missing and inaccurate NDCs. Our sampling
                  methodology was appropriate for this purpose. The data presented in
                  this report pertain only to the sampled groups and identify missing
                  and inaccurate drug products in FDA’s databases.

                  With regard to FDA’s comment that our finding concerning the
                  36 percent of drug products was not representative of the entire
                  Directory, we clarified the finding’s wording in the report.

                  We acknowledge the apparent decline in the percentage of missing
                  drug products, and we continue to recommend that FDA implement
                  the actions described to address the remaining issues identified and
                  ensure that the Directory is complete and accurate.




OEI-06-05-00060   THE FOOD   AND   D R U G A D M I N I S T R AT I O N ’ S N AT I O N A L D R U G C O D E D I R E C T O RY      17
                                                                                        Report Template Version = 03-01-05_rev.07




Δ   E N D N O T E S                            





                  1   Food, Drug and Cosmetic Act, §§ 510(j)(1) and 510(b).

                  2   21 CFR § 207.21(a)(b) (2005).

                  3   Firms are required to submit updates every June and December.

                  4   21 CFR § 207.21(b) (2005).

                  5   Food, Drug and Cosmetic Act, §§ 502, 301(p), and 303.

                  6In 2004, FDA issued a final rule requiring, among other things,
                  prescription drug products to have barcodes that contain NDCs. As a
                  consequence, entities that develop systems to utilize barcodes will require
                  a complete electronic listing of NDCs, which FDA has committed to
                  providing. An incomplete Directory may lessen the usefulness of
                  barcoding and reduce its intended impact as a tool to reduce medication
                  error in health care settings.

                  7Bar Code Label Requirements for Human Drug Products and
                  Biological Products; Final Rule, 69 Federal Register 9120, February 26,
                  2004.

                  8 Form FDA-2657 (the Drug Product Listing Form) is used by drug firms
                  for initial listing of all information for all drugs in commercial
                  distribution, may be used by private-label distributors that elect to
                  submit information directly to FDA, and is used to update information
                  on currently listed drug products. Form FDA-2658 (the Registered
                  Establishment’s Report of Private Label Distributors) is used by drug
                  firms to list information for private-label distributors that do not elect to
                  submit listing information directly to FDA.

                  9   21 CFR § 207.22(b) (2005).

                  10The pending drug product file contains 32,418 NDCs for products that
                  have been submitted for listing and need corrections or additional
                  information. The discontinued drug product file contains 62,250 NDCs
                  for products that were discontinued and are no longer on the market.




OEI-06-05-00060   THE FOOD   AND   D R U G A D M I N I S T R AT I O N ’ S N AT I O N A L D R U G C O D E D I R E C T O RY      18
                                                                                        Report Template Version = 03-01-05_rev.07




                  11   21 CFR § 207.35(b) (2005).

                  12For this report, the term “drug firms” represents not only drug
                  manufacturers, but also relabelers, distributors, and repackagers of
                  drug products.

                  13Some Government agencies display NDCs in an 11-digit format that
                  includes a 5-digit labeler code, a 4-digit product code, and a 2-digit
                  package code. FDA uses a 10-digit code that is configured as 4-4-2,
                  5-3-2, or 5-4-1 (labeler code-product code-package code).

                  14First DataBank, Knowledge Bases, National Drug Data File Plus
                  (2004). Available online at
                  http://www.firstdatabank.com/knowledge_bases /nddf_plus/. Accessed
                  May 2005.

                  15   May and July 2005: Telephone interviews with First DataBank staff.

                   Department of Health and Human Services, Office of Inspector
                  16

                  General, “The FDA Prescription Drug File,” OEI-03-90-02300,
                  November 1991.

                  17   21 CFR § 207.21(b) (2005).

                  18Available online at http://www.fda.gov/cder/drls/default.htm.
                  Accessed June 15, 2005.




OEI-06-05-00060   THE FOOD   AND   D R U G A D M I N I S T R AT I O N ’ S N AT I O N A L D R U G C O D E D I R E C T O RY      19
                                                                                                         Report Template Version = 03-01-05_rev.07




 Δ          A P P E N D I X ~ A



                               FDA’s Current Drug Listing Process



      FDA receives, barcodes, and logs                                                                                            FDA contractor reviews forms
   completed 2657/8 forms from drug firms.                                                                                            for completeness and
                                                                                                                                 correctness, then date stamps all
                                                                                                                                           documents.


                                                                         Information is
                  FDA                                                      deficient.
                        Firm




          Forms are copied and filed.

           Original is returned to the

   firm with letter describing deficiencies.

      Firm has 20 working days to return

     paperwork with correct information.




          No response from firm.
                                                                                                                                             Information is
                                                              Corrected forms are                                                         complete and correct.
                                                               returned to FDA.




    FDA sends a second notification.
    The firm has 10 working days to
    return the form with corrections.


                                                                     Corrected forms are
             No response                                              returned to FDA.
              from firm.




                                                                                                                      Information is entered into the
                                                                                                                  DRLS, which updates the NDC Directory.
    Deficient paperwork is kept in
                                                                                                                      Paper file is placed in storage.
   the pending file and not updated
        in the NDC Directory.


     Source: OIG description of FDA’s listing process based on interviews with FDA staff and observations of
     FDA’s contractors.




OEI-06-05-00060                 THE FOOD   AND   D R U G A D M I N I S T R AT I O N ’ S N AT I O N A L D R U G C O D E D I R E C T O RY                           20
                                                                                           Report Template Version = 03-01-05_rev.07




Δ        A P P E N D I X ~ B 




                  Detailed Methodology

                  This study relied on multiple data sources and methods. Sources
                  included Food and Drug Administration (FDA), drug firms, and First
                  DataBank. This appendix provides a detailed description of data
                  sources, sample selection, and data collection procedures.
                  Data Sources
                  Databases

                  Databases we used for this study were FDA’s Drug Registration and
                  Listing System (DRLS) and First DataBank’s National Drug Data File
                  Plus™ (hereafter referred to as First DataBank).
                  The FDA Drug Registration and Listing System The DRLS consists of the
                  listed drug file or National Drug Code (NDC) Directory, the Pending
                  Drug File, and the Discontinued Drug file. The FDA DRLS files we
                  used were downloaded on and current as of February 11, 2005.
                      a. 	 The DRLS Listed Drug File—the “Directory” The Directory contains
                           all prescription drugs, selected over-the-counter (OTC) drugs,
                           and homeopathic drugs. This study was limited to prescription
                           drugs. The Directory contained a listing of 123,856 NDCs for
                           57,035 prescription drug products.1
                      b. 	 The DRLS Pending File The Pending File contains NDCs
                           submitted by drug firms that were not listed in the Directory
                           because of deficiencies in the submission (i.e., incomplete or
                           incorrect information). The Pending File contained 32,418
                           NDCs for 13,160 prescription drug products.
                      c.	 The DRLS Discontinued File The Discontinued File contains NDCs
                          for prescription drugs that are no longer on the market as
                          reported by drug firms. The Discontinued File contained 62,250
                          NDCs for 38,463 prescription drug products.
                  First DataBank First DataBank is a private, commercially available
                  database that provides descriptive and pricing information for prescription
                  drugs, OTC drugs, herbal remedies, and dietary supplements. We
                  included only the prescription drugs for this study. The First



                    1 Each product may have multiple NDCs because of multiple package codes.




OEI-06-05-00060   THE FOOD   AND   D R U G A D M I N I S T R AT I O N ’ S N AT I O N A L D R U G C O D E D I R E C T O RY        21
                                                                                                  Report Template Version = 03-01-05_rev.07




 A   P   P E N D   I X        ~           B


                         DataBank file we used was downloaded and current as of February 25,
                         2005, and contained 47,814 NDCs for 24,850 prescription drug products.
                         Documentary Evidence

                         We reviewed the following documents:

                             1. 	 FDA’s Guidance For Industry: Forms for Registration of
                                  Producers of Drugs and Listing of Drugs in Commercial
                                  Distribution (Draft Guidance);

                             2. 	 Guidance manual provided to FDA contractors responsible for
                                  responding to drug listing questions, processing drug
                                  registration forms, and posting entries to list drugs in the
                                  Directory;

                             3. 	 Letter templates to inform drug firms of deficiencies in listing
                                  submissions; and

                             4. 	 Samples of listing submissions.

                         We also reviewed copies of Form FDA-2657/2658 that were submitted
                         by drug firms to list or update the status of NDCs. We obtained copies
                         of forms from FDA files and from drug firms. We compared forms
                         obtained from FDA files with those submitted by drug firms and with
                         information in the Directory.
                         Interviews

                         We conducted interviews with FDA staff in May 2005. These interviews
                         provided information about the listing procedures used to process
                         documents received from drug firms. FDA staff described the
                         procedures they follow when drug listing submissions are incomplete or
                         inaccurate.
                         Information Requests

                         We sent information request forms to drug firms asking if the NDC in
                         our sample was associated with their respective firm, if the product was
                         still on the market, if they submitted drug listing forms for the NDC
                         and, in cases where the product was no longer on the market, whether
                         they submitted forms to discontinue the listing. If a drug firm reported
                         it had not submitted forms to list or discontinue an NDC, we requested
                         a reason. If the firm reported that it had submitted forms, we requested
                         supporting documentation.




OEI-06-05-00060          THE FOOD   AND   D R U G A D M I N I S T R AT I O N ’ S N AT I O N A L D R U G C O D E D I R E C T O RY        22
                                                                                                     Report Template Version = 03-01-05_rev.07



        A   P     P E N D     I X            ~          B



                            Firm Surveys

                            Our survey asked firms about difficulties in listing NDCs, their
                            perceptions of the adequacy of guidance provided by FDA, whether and
                            how they verify that their NDCs are listed, if they ever needed to
                            resubmit information because of deficiencies, and how they learned of a
                            need to resubmit material(s).
                            Data Cleaning
                            Some cleaning of the Directory, the FDA Pending File, and First
                            DataBank files was necessary. We eliminated records for
                            nonprescription drugs and invalid or incomplete NDCs from the
                            Directory and the FDA Pending File. We eliminated records for
                            discontinued NDCs, those with invalid or incomplete NDCs, and all
                            nonprescription drug products from First DataBank.

                            The NDC variable in First DataBank is a segmented 11-digit number,
                            rather than a segmented 10-digit number as in FDA’s Directory. To
                            compare the Directory with First DataBank, we had to replicate First
                            DataBank’s NDC format. In both databases the NDC code is made up
                            of a combination of a labeler code, a product code, and a package code.
                            However, FDA’s NDC format is a 3-segment number that allows for
                            various combinations of segment lengths (4-4-2, 5-3-2, 5-4-1) as long as
                            the result is a 10-digit number. First DataBank’s format forces a
                            consistent 5-4-2 combination. We added zeroes where necessary to the
                            front of segments and combined the three segments to conform to the
                            5-4-2 format used by First DataBank.
                            Sample Selection
                            We sampled 400 NDCs to estimate the proportion missing from the
                            Directory and the proportion that should not be in the Directory. We
                            did this to verify which NDCs were still on the market.

                            We matched the Directory and FDA Pending File with First DataBank
                            to determine unlisted NDCs that were in First DataBank, and NDCs in
                            the Directory but not listed in First DataBank. Table B1 provides more
                            information about our population and samples.

                                • 	 We randomly selected 200 NDCs from the 18,664 products listed
                                    in First DataBank but not in the Directory. We selected 100
                                    NDCs missing from all DRLS files and 100 present in the FDA
                                    Pending file but not the Directory.

                                • 	 We randomly selected 200 NDCs from the 94,682 products listed
                                    in the Directory but not in First DataBank.

OEI-06-05-00060             THE FOOD   AND   D R U G A D M I N I S T R AT I O N ’ S N AT I O N A L D R U G C O D E D I R E C T O RY        23
                                                                                               Report Template Version = 03-01-05_rev.07


    A   P   P E N D   I X        ~          B            





                       Table B1: Source Databases and Sample Size by Category
                       Number of Records in Database
                       FDA Directory                                                                                                     123,856
                       First DataBank                                                                                                     47,814
                       FDA Pending File                                                                                                   32,418
                       Number of Records in Population
                                                                                                                   Population Size       Sampled

                       Products in Directory but NOT First DataBank                                                             94,682       200
                       Products in First DataBank but NOT Directory                                                             13,163       100

                       Products in First DataBank and FDA Pending File                                                           5,479       100
                       Source: OIG matching of FDA Directory and Pending file with First DataBank.




                      Data Collection
                      FDA Files

                      We went onsite at FDA to collect available physical files for each NDC
                      in our three samples. FDA staff also searched files for forms we were
                      unable to locate.
                      Pending NDC Information

                      FDA provided a DRLS database printout in Microsoft Excel format of
                      the reasons listings were pending for our sample of 100 NDCs in the
                      Pending File and First DataBank.
                      Firm Survey

                      There were 173 different drug firms associated with the 400 sampled
                      NDCs. We sent surveys to 172 of the 173 drug firms.2 To respond to
                      the questions, drug firms needed to have experience with listing NDCs.
                      Fourteen drug firms were classified as ineligible for a variety of reasons
                      (see Table B2). Five drug firms refused to respond to the survey. The
                      final survey reponse rate was 97 percent as shown in Table B2.




                         2 We determined that one firm was ineligible to respond and therefore did not send a
                      survey to that firm.



OEI-06-05-00060       THE FOOD   AND   D R U G A D M I N I S T R AT I O N ’ S N AT I O N A L D R U G C O D E D I R E C T O RY                 24
                                                                                                 Report Template Version = 03-01-05_rev.07


     A    P   P E N D   I X         ~           B            





                        Table B2: Drug Firm Survey Response
                        Group                                                                                                      Number
                         Drug firms with products in sample                                                                            173
                         No survey sent; identified as unable to respond for a valid
                         reason                                                                                                          1
                         Ineligible: Out of business                                                                                     9
                         Ineligible: Do not complete their own forms                                                                     3
                         Ineligible: No longer own pharmaceutical division of
                         business                                                                                                        2
                         Final sample size                                                                                             158
                                                                                                                                  Response
                         Refused to respond                                                                                              5
                         Surveys completed                                                                                             153
                         Response rate                                                                                                97%
                         Source: OIG analysis of surveys mailed to and returned by drug firms.




                        Firm Information Request

                        We sent 399 information request documents to the 172 drug firms with
                        NDCs in our sample.3 We did not receive 10 responses from 9 drug
                        firms that were no longer in business. All were in the sample of NDCs
                        in FDA and not First DataBank. We coded these as “no longer on the
                        market” and grouped them with other NDCs that should have been
                        discontinued. (See Table B3.)
                        Analysis of Quantitative Data
                        Firms’ responses to the information requests were used to code whether
                        the products were on the market and whether the drug firms reported
                        they had submitted forms to list or delist NDCs. Reasons NDCs were
                        pending were coded from information provided by FDA.

                        Drug firms were coded as “out of business, products off the market”
                        when: (1) the information request was returned by the Postal Service,
                        (2) an exhaustive Internet search for information about the firm
                        produced no results, and (3) we verified the firm’s last registration date
                        and other relevant information with FDA.


                          3 Some firms had more than one NDC in our sample and received multiple information
                        request forms.



OEI-06-05-00060         THE FOOD   AND   D R U G A D M I N I S T R AT I O N ’ S N AT I O N A L D R U G C O D E D I R E C T O RY              25
                                                                                                     Report Template Version = 03-01-05_rev.07


        A   P     P E N D     I X            ~          B            





                              Table B3: Information Request Response
                              Sample: Records Not in FDA’s Directory but Listed in First DataBank
                              Initial sample                                                                                           100
                              Ineligible: products were OTC drugs                                                                        3
                              Final sample                                                                                              97
                              Number of responses                                                                                       96
                              Response rate                                                                                           99%
                              Sample: Records in FDA Pending File and Listed in First DataBank
                              Initial sample                                                                                           100
                              Number of responses                                                                                      100
                              Response rate                                                                                           100%
                              Sample: Records in Directory but Not in First DataBank
                              Initial sample                                                                                           200
                              Information requests received from drug firms                                                            189
                              No response (firm out of business and drug off market)                                                    10
                              Number of responses                                                                                      199
                              Response rate                                                                                           100%
                              Source: OIG Analysis of information requests sent to and received by drug firms.




                              Extrapolating Sample Conclusions to the Population

                              Estimates generalizing the results from the sample findings to the
                              respective populations were based on a 95-percent confidence
                              interval. Each confidence interval estimated the range of values
                              which were likely to include the population parameter (which is
                              unknown). The upper and lower boundaries of the confidence limits
                              are reported. (See Appendix C.)




OEI-06-05-00060             THE FOOD   AND   D R U G A D M I N I S T R AT I O N ’ S N AT I O N A L D R U G C O D E D I R E C T O RY          26
                                                                                                             Report Template Version = 03-01-05_rev.07




   Δ          A P P E N D I X ~ C



   Confidence Intervals


Table C1: NDCs on the Market, Not in the Directory, but Listed in First DataBank
          Population: 13,163
          Number in Sample: 96

                                                                                                                                    95% Confidence
                                                                                                                                       Interval for
                                                                                                                                  Percentage (Number)
                                                                                                       Percentage                     on the Market
                                                                                                      (Number) in                    Lower         Upper
Group                                                                                                      Group
NDCs on the Market and Not in the Directory                                                                   69.8                         60.5          79.1
(Number in parentheses below percentage)                                                                   (9,187)                      (7,960)      (10,413)
Subgroups of NDCs on the Market and Not in the Directory
(Analysis of 67 NDCs that were in this group, representing 69.8% of the sample of 96)
Firm reported listing and provided unsubstantiated evidence                     46.3                                                          34.0      58.5
Firm reported listing but did not provide evidence; none found in FDA
files                                                                           28.4                                                          17.3      39.4
Firm admittedly did not list                                                    16.4                                                           7.3      25.4
Firm reported listing; and evidence found in FDA files*                           9.0                                                          3.4      18.5
*To adjust for invalid results because of the small number (negative number on lower confidence interval), this confidence
interval was calculated with an exact method based on the binomial distribution.




   OEI-06-05-00060                  THE FOOD   AND   D R U G A D M I N I S T R AT I O N ’ S N AT I O N A L D R U G C O D E D I R E C T O RY                     27
                                                                                                              Report Template Version = 03-01-05_rev.07



A   P   P E N D          I X        ~       C           





Table C2: NDCs on the Market and Pending and Reasons Pending
          Population: 5,479
          Number in Sample: 100

                                                                                                                                     95% Confidence
                                                                                                                                        Interval for
                                                                                                                                   Percentage (Number)
                                                                        Percentage                                                    on the Market
                                                                       (number) in                                                    Lower         Upper
Group                                                                        Group
NDCs Not in Directory, in FDA Pending File, and on the Market                   94.0    89.3                                                         98.7
(Number in parentheses below percentage)                                     (5,150) (4,893)                                                      (5,407)
Reasons Pending Subgroups of NDCs Not in Directory, in FDA Pending File, and on the Market
(Analysis of 94 NDCs that were in this group, representing 94% of sample of 100)
Firm failed to provide label and/or package insert                              40.4    30.4                                                        50.4
Firm submitted incorrect manufacturer information                               39.4    29.4                                                        49.3
Manufacturer has not listed NDC                                                 34.0    24.4                                                        43.7
Other error on the form                                                         11.7     5.1                                                        18.3
Unknown*                                                                         2.1     0.3                                                         7.5
*To adjust for invalid results because of the small number (negative number on lower confidence interval), this confidence
interval was calculated with an exact method based on the binomial distribution.




    OEI-06-05-00060                 THE FOOD    AND   D R U G A D M I N I S T R AT I O N ’ S N AT I O N A L D R U G C O D E D I R E C T O RY                28
                                                                                                              Report Template Version = 03-01-05_rev.07



A   P   P E N D          I X        ~       C           





Table C3: NDCs Not on the Market, Not in First DataBank, but Listed With FDA
          Population: 94,682
          Number in Sample: 199

                                                                                                                                         95% Confidence
                                                                                                                                              Interval for
                                                                                                                                     Percentage (Number)
                                                                                                        Percentage                          on the Market
                                                                                                       (Number) in                     Lower       Upper
Group                                                                                                        Group
NDCs Not on the Market, Listed in the Directory                                                                36.2                       29.5            42.9
(Number in parentheses below percentage)                                                                   (34,257)                   (27,887)        (40,626)
Subgroups of NDCs Not on the Market, Listed in the Directory
(Analysis of 72 NDCs that were in this group, representing 36.2% of the sample of 199)
Firm failed to delist discontinued product                                      54.2                                                           42.4      66.0
Firm failed to delist old NDC when new NDC was assigned                         18.1                                                            9.0      27.2
Firm no longer in business and did not discontinue NDCs                         12.5                                                            4.7      20.3
Firm was unaware of listing                                                     12.5                                                            4.7      20.3
FDA error*                                                                        2.8                                                           0.3       9.7
*To adjust for invalid results because of the small number (negative number on lower confidence interval), this confidence
interval was calculated with an exact method based on the binomial distribution.




    OEI-06-05-00060                 THE FOOD    AND   D R U G A D M I N I S T R AT I O N ’ S N AT I O N A L D R U G C O D E D I R E C T O RY                     29
                                                                                           Report Template Version = 03-01-05_rev.07


Δ        A P P E N D I X ~ D                            





OEI-06-05-00060   THE FOOD   AND   D R U G A D M I N I S T R AT I O N ’ S N AT I O N A L D R U G C O D E D I R E C T O RY        30
                                                                                           Report Template Version = 03-01-05_rev.07




OEI-06-05-00060   THE FOOD   AND   D R U G A D M I N I S T R AT I O N ’ S N AT I O N A L D R U G C O D E D I R E C T O RY        31
                                                                                           Report Template Version = 03-01-05_rev.07




OEI-06-05-00060   THE FOOD   AND   D R U G A D M I N I S T R AT I O N ’ S N AT I O N A L D R U G C O D E D I R E C T O RY        32
                                                                                           Report Template Version = 03-01-05_rev.07




OEI-06-05-00060   THE FOOD   AND   D R U G A D M I N I S T R AT I O N ’ S N AT I O N A L D R U G C O D E D I R E C T O RY        33
                                                                                           Report Template Version = 03-01-05_rev.07




OEI-06-05-00060   THE FOOD   AND   D R U G A D M I N I S T R AT I O N ’ S N AT I O N A L D R U G C O D E D I R E C T O RY        34
                                                                                           Report Template Version = 03-01-05_rev.07




OEI-06-05-00060   THE FOOD   AND   D R U G A D M I N I S T R AT I O N ’ S N AT I O N A L D R U G C O D E D I R E C T O RY        35
                                                                                             Report Template Version = 03-01-05_rev.07




  Δ         A C K N O W L E D G M E N T S                                                               


                    This report was prepared under the direction of Judith V. Tyler,
                    Regional Inspector General for Evaluation and Inspections in the Dallas
                    Regional Office, and Kevin Golladay, Deputy Regional Inspector
                    General. Other principal Office of Evaluation and Inspections staff who
                    contributed include:

                    Susan Wolfe, Ph.D., Project Leader
                    Sarah Craren, Ph.D., Program Analyst

                    Ayana Everett, Program Specialist

                    Elise Stein, Director, Public Health and Human Services Branch

                    Kevin Farber, Mathematical Statistician

                    Barbara Tedesco, Mathematical Statistician




OEI-06-05-00060     THE FOOD   AND   D R U G A D M I N I S T R AT I O N ’ S N AT I O N A L D R U G C O D E D I R E C T O RY        36
